CERTIFICATE OF SERVICE
No. 20-458
Michael B. Brown
Petitioner,
v.
U.S. Department of Labor
Respondent.

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Michael
B. Brown Petition for Rehearing, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202)514-2217
SupremeCtBriefs@USDOJ.gov
Counselfor U.S. Department ofLabor

Lucas'fteDeus

January 8,2021
SCP Tracking: Brown-P.O. Box 3343-Cover Tan

